               U.S. House of Representatives
               Committee on Ways and Means
               Subcommittee on Social Security




                   Statement for the Record

Hearing on the Role of Social Security Numbers in Identity Theft
             and Options to Guard Their Privacy


            The Honorable Patrick P. O’Carroll, Jr.
                       Inspector General
                Social Security Administration

                         April 13, 2011
Good afternoon, Chairman Johnson, Mr. Becerra, and members of the Subcommittee. As always, it’s a
pleasure to appear before you, and I thank you for the invitation to testify today. I have appeared before
this Subcommittee many times to discuss issues critical to the Social Security Administration (SSA) and
the services the Agency provides to American citizens. Today, we are discussing the Social Security
number (SSN) and ways to improve SSN protection and guard against misuse and identity theft.

I last spoke to the Subcommittee about this issue in June 2007, but with SSN use widespread throughout
government programs and financial transactions, and technology constantly evolving, the threat of SSN
misuse and identity theft lingers. We in the Office of the Inspector General (OIG) are well aware of the
central role that the SSN plays in American society, and part of our mission is to protect its integrity
along with the other personally identifiable information (PII) within Social Security Administration
(SSA) records. To provide some context on the issue, in Fiscal Year (FY) 2009, SSA processed about 6
million original SSN cards and 12 million replacement SSN cards; and received about $671 billion in
employment taxes related to earnings under assigned SSNs. Protecting the SSN and properly posting
wages under SSNs is paramount to ensuring SSN integrity and protecting our citizens’ PII.

As the Subcommittee is well aware, the SSN was created in 1935 to keep an accurate record of each
person’s Social Security earnings, but over the years, Federal and State governments have relied on the
SSN as the identifier of choice for a variety of government programs. Financial institutions are also
required to obtain the SSNs of their customers. With each new use, the SSN has more value, and when
you create something of value, someone will try to steal it. In May 2006, President Bush ordered the
establishment of the National Identity Theft Task Force, which created directives for Federal agencies to
strengthen efforts to protect against identity theft. Our reviews have found that SSA has followed these
directives for years and strives to improve SSN integrity.

SSA has implemented numerous improvements in its SSN assignment, or enumeration, process. We
believe SSA’s improved procedures have reduced its risk of improperly assigning these important
numbers. Some of the Agency’s more notable improvements include:

       establishing enumeration centers that focus exclusively on assigning and issuing SSN cards;
       requiring that field office personnel who process SSN applications use a standardized Web-
       based, intranet process known as SSNAP, which reinforces Agency enumeration policies and
       standardizes data collection; and
       strengthening the requirements for identity documents presented with SSN applications to ensure
       that the correct individual obtains the correct SSN.

In addition, to prevent misuse of personal information, SSA has reported the following actions:

       SSA removed SSNs from the Social Security Statement, displaying only the last four digits.
       The Department of the Treasury removed the SSN and other types of numeric identifiers from
       Federal checks.
       SSA no longer releases SSNs or any PII to a caller who cannot provide his or her SSN. SSA now
       refers such callers to field offices for further verification of their identity before releasing any
       information.
       When SSA assigns a new SSN because a person has recently been disadvantaged by the misuse
       of his or her SSN, a special indicator is placed on the old SSN record to block issuance of
       replacement SSN cards and SSN printouts.


                                                    1
Several years ago, to keep track of OIG’s many efforts to protect the SSN, we formed the Social
Security Number Integrity Protection Team, or SSNIPT. That group, comprised of attorneys, auditors,
and investigators, led to the eradication of displays of SSNs on Selective Service mailings and the Thrift
Savings Plan Website—two practices by which the Federal government was itself putting the SSN at
risk. We are very pleased to learn that the Department of Defense is replacing the SSN with a DOD
identification number on all agency identification cards, to protect the privacy and personal information
of our military personnel.

We applaud these and other efforts, but even now, SSA has no authority to prohibit the legitimate
collection and use of SSNs. Moreover, our audit and investigative work has taught us that the more
SSNs are unnecessarily used, the higher the probability that these numbers can be used to facilitate the
commission of crimes throughout society. We believe SSA should support legislation to limit public and
private entities’ collection and use of SSNs, and improve the protection of the information when
obtained; continue its efforts to safeguard and protect PII; and develop appropriate authentication
measures to ensure the highest level of security and identity assurance before offering replacement SSN
cards over the Internet.

Our ongoing and recently completed audit work has highlighted vulnerabilities and suggested some
ways in which SSA can persuade public and private organizations to limit the collection, use, and
disclosure of SSNs. We are working on or have completed the following related reviews:

       We are currently conducting an audit to assess State Departments of Health use of SSNs in their
       newborn screening process. Our focus will be to determine whether States have adequate
       controls in place to safeguard SSNs.

       Kindergarten Through 12th Grade Schools’ Collection and Use of SSNs, released in July 2010,
       determined that many K-12 schools used SSNs as the primary identifier for students or for other
       purposes, even when another identifier would have sufficed. We believe that while some schools
       use SSNs as a matter of convenience, administrative convenience should never be more
       important than safeguarding children’s personal information.

       Prisoners’ Access to SSNs, released in March 2010, was a follow-up to a 2006 review that found
       that prisons in 13 States allowed inmates access to SSNs through various work programs. We
       determined that eight of the 13 States identified in our 2006 report continued this practice.
       However, in December 2010, the President signed the Social Security Number Protection Act of
       2010, which prohibited prison work programs from granting prisoners access to SSNs.

       State and Local Governments’ Collection and Use of SSNs, released in September 2007,
       identified instances in which some State and local governments posted public documents that
       contained SSNs on the Internet. We recommended that SSA seek legislation to limit SSN
       collection by State and local governments.

Although temporary residents may have authorization to work in the United States for the limited time
they are here, we question the propriety of assigning an SSN, which is valid for life, to these individuals,
because the SSN may be a key to a temporary resident’s ability to overstay his or her visa. We are
working on or have completed the following related reviews:



                                                     2
       Because of numerous instances of fraud and abuse in the H1-B (non-immigrant) worker
       program, we are currently conducting an audit to assess these workers’ use of SSNs. An
       individual in the H1-B visa program is allowed to work for only one specific employer that has
       been approved by the Departments of Labor and Homeland Security. Our focus will be to
       determine whether these non-immigrants are working for their approved employers.

       Assignment of SSNs to Noncitizens with Fiancé Visas, released in May 2008, questioned the
       approval of an SSN to someone for as long as three months before they marry, because SSA
       might be giving those who have no intention to marry a tool for overstaying their visas. We
       recommended that SSA discuss with the Department of Homeland Security the feasibility of not
       granting work authorization to K-1 visa holders until they marry, but SSA and DHS determined
       it was not feasible.

       Assignment of SSNs to J-1 Exchange Visitors, released in July 2007, recommended that SSA
       work with the IRS to develop alternatives to assigning SSNs to certain types of exchange
       visitors, including the IRS’ issuing Individual Taxpayer Identification Numbers. SSA declined to
       do so, stating that changing the way individuals are enumerated under the two J-1 categories we
       reviewed would create inconsistencies with policies regulating the other 11 categories.

Another issue to consider is SSA’s procedures for issuing SSN Verification Printouts. Under the Privacy
Act, individuals are allowed to obtain their SSN information from SSA, and the printout is among the
items available. The printout is a limited version of the Numident record, but it still contains the same
basic information as the Social Security card. The printout, however, has no security features.

SSA’s current disclosure regulations that implement the Privacy Act allow an individual to provide less
probative identity documents to obtain an SSN Printout. In certain circumstances, an individual can
obtain the SSN printout from a field office without any identity documents. In a December 2007 report,
Controls for Issuing Social Security Number Verification Printouts, we said procedures for issuing the
printouts should follow SSA’s improved replacement card procedures.

In response to the Intelligence Reform and Terrorism Prevention Act of 2004, SSA revised its policies
and procedures for issuing Social Security replacement cards. Some of SSA’s actions included
increasing the identity requirements, such as presenting valid photo identification documents for
obtaining a replacement SSN card; and limiting the number of replacement Social Security cards an
individual can receive to no more than three in a year and 10 in a lifetime.

However, SSA did not implement similar procedures in the SSN printout issuance process. Our ongoing
audit on SSA’s controls over the issuance of SSN printouts determined the Agency issued about 7
million printouts in FY 2009, up from about 4.6 million in FY 2003, the first full year SSA issued the
printouts. That audit is almost complete, and we anticipate issuing a report early this summer.

Turning to the issue of identity theft, the Federal Trade Commission estimates that as many as 9 million
Americans have their identities stolen each year. The victim and their families often suffer mentally and
emotionally as they attempt to repair the cracks in their financial foundation. The Martinez family,
unfortunately, has coped with the effects of identity theft for several years, as I will explain.

Dr. Juan Martinez is a 37-year-old assistant professor of microbiology. Dr. Martinez was born and
raised in southwest Chicago, so he was thrilled to accept a position teaching at the University of Chicago
                                                    3
in 2005. Shortly thereafter, Dr. Martinez received a letter from the IRS that stated he failed to pay taxes
on wages earned the previous year in Colorado; the letter arrived with a substantial bill. Although Dr.
Martinez had never worked in Colorado, someone using his name, SSN, and date of birth had received
wages there from a facilities management company. Dr. Martinez then had to go about proving his case
to the IRS, tracking down credit reports, bank records, and cell phone accounts, all while searching for a
person who was working under a common Hispanic name.

Local law enforcement authorities eventually referred the case to one of our investigators, Special Agent
Thomas Brady, who has investigated many identify theft cases. Brady worked with Dr. Martinez and
Bank of America, where the other “Juan Martinez” had opened an account. Bank of America provided
Agent Brady with account records, including a Missouri address and a photo taken at an ATM.

Agent Brady went to the address in Missouri, and the man who answered the door was the man in the
ATM photo. He identified himself as Roberto Ramos-Carvente, and he admitted to obtaining false
documents and using Dr. Martinez’s identity to gain employment at a restaurant, rent his apartment, and
open a bank account in Missouri.

Our investigation resulted in criminal charges of SSN misuse and identity theft against Mr. Ramos-
Carvente, who was sentenced in March 2011 to seven months in prison and two years’ supervised
release. He was also ordered to pay restitution of $5,650 to Dr. Martinez. Finally, Ramos-Carvente was
ordered to participate in deportation proceedings and remain outside the United States, if deported.

Dr. Martinez is grateful for our efforts in resolving this issue, but a huge amount of credit goes to the
victim himself for working tirelessly to track down the person who had stolen his identity. Nevertheless,
we are very pleased to have helped Dr. Martinez, and while he could not be here today, he has prepared
a written statement for the record. He has said he wants to help others protect themselves so they can
avoid the trauma of identity theft.

As we pursue investigations similar to the case of Dr. Martinez, our agents also participate on about 45
SSN misuse task forces throughout the country, which cover mortgage fraud, bankruptcy fraud, and
document and benefit fraud, as well as identity theft. In FY 2010, we opened 309 cases related to SSN
misuse, which accounted for about 5 percent of all cases we opened during that period. In addition, in
FY 2010, we had 441 SSN misuse cases that resulted in a criminal conviction, as a result of either a
sentencing or a pre-trial diversion.

We support the prior bipartisan legislative efforts of this Subcommittee to limit the use, access, and
display of the SSN in the public and private sectors; and to increase penalties against those who
fraudulently misuse the SSN. Most recently, the Subcommittee introduced the Social Security Number
Privacy and Identity Theft Prevention Act of 2009. This legislation included new criminal penalties for
the misuse of SSNs; criminal penalties for SSA employees who knowingly and fraudulently issue Social
Security cards or SSNs; and enhanced penalties in cases of terrorism, drug trafficking, crimes of
violence, or prior offenses.

The legislation would also expand the types of activities that are subject to civil monetary penalties
(CMP) and assessments under Section 1129 of the Social Security Act. Currently, an individual who
misuses an SSN is not subject to a CMP, except in cases related to the receipt of Social Security benefits
or Supplement Security Income. The legislation would authorize the imposition of CMPs and


                                                     4
assessments for activities such as providing false information to obtain an SSN, using an SSN obtained
through false information, or counterfeiting an SSN.

The expanded use of the SSN in today’s society has made it a valuable commodity for criminals. In
addition to being a lynchpin for identity theft crimes, it also assists an individual to assimilate into our
society, in some instances to avoid detection. The importance of SSN integrity to prevent identity theft
and ensure homeland security is universally recognized. Providing enhanced, structured penalties is
appropriate to reflect the vital importance of the SSN.
As we saw with Dr. Martinez, identity theft can take many forms, as an individual used his SSN to gain
employment, rent an apartment, and open bank accounts. Identity theft is serious, and while OIG and
SSA have controls in place to protect the SSN, we should all be aware of the dangers of being careless
with our personal information. We urge people to keep their Social Security cards in a secure place, to
shred personal documents, and to be aware of phishing scams, because no reputable financial institution
or company will ask for personal information like an SSN via the Internet. It is also important to protect
personal computers with a firewall and updated anti-virus protection.

Additionally, we should all be judicious in giving out an SSN in business transactions, because while it
is required for financial transactions, an SSN is not necessary for everyday transactions like applying for
a gym membership. It is also critically important that we all monitor our financial information regularly
by checking credits report from one of the three major credit bureaus. By knowing how to protect
ourselves, we can make life much more difficult for identity thieves.

In conclusion, SSA has a long history of protecting PII, and while current conditions may be the most
challenging yet, we are confident SSA will rise to the occasion and address the challenges of today and
tomorrow. Identity theft will undoubtedly persist for years to come, because of the reliance on the SSN
as a national identifier and advances in technology and communication, but we are committed to
ensuring that the information in SSA’s records remains safe and secure. The SSN was never intended to
do more than track a worker’s earnings and to pay that worker benefits, but as the use of the SSN has
expanded over the decades, its value has increased as a tool for criminals. Therefore, we must continue
to ensure the integrity of the enumeration process; limit the collection, use, and public display of the
SSN; encourage the protection of the SSN by those who use it legitimately; and provide meaningful
sanctions for those who fail to protect the SSN or misuse it.

The OIG has done, and continues to do, significant audit and investigative work related to SSN misuse
and identity theft. We will continue to provide information to Agency decision-makers and this
Subcommittee about this critically important issue. I thank you again for the invitation to speak with you
today, and I’d be happy to answer any questions.




                                                      5
